Washington, D.C. 20530

August 16, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Demario Deshawn Simpson v. United States of America,
S.Ct. No. 20-8415
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on June 23, 2021. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on August 20, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 20, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

20-8415
SIMPSON, DEMARIO DESHAWN
USA

SCOTT GRAHAM
SCOTT GRAHAM PLLC
1911 WEST CENTRE AVENUE
SUITE C
PORTAGE, MI 49024
269-327-0585
SGRAHAM@SCOTTGRAHAMPLLC.COM

